Our examination of production grant expenditures identified $7,200 in unsupported
costs and $6,929 for duplicate direct charges included in the indirect costs claimed as
overhead expenses. Further, WQED did not maintain discrete accounting of CPB grant
funds as required by grant agreement terms, but did comply with the requirements of
the Act.

We performed this examination based on the Office of Inspector General’s (OIG) annual
audit plan objective to perform reviews of a cross-section of stations and organizations
comprising the public broadcasting system. We performed our examination in
accordance with Government Auditing Standards for attestation examinations. Our
scope and methodology is discussed in Exhibit O.

In response to the draft report, WQED management did not agree with the majority of
our findings concerning the improperly claimed NFFS revenues. However, WQED did
agree with our finding on discrete accounting. They indicated the station’s accounting
system was restructured to discretely track revenue and expenses for each grant to
prevent future overcharges to grants. WQED’s response did not address our
recommendations regarding overcharging CPB grants, unsupported costs, and AFR
reporting. WQED’s complete response to the draft report is attached in Exhibit P.

This report presents the conclusions of the OIG. The findings and recommendations
contained in this report do not necessarily represent CPB management’s final position
on these matters. Accordingly, this report contains recommendations the OIG believes
would be appropriate to resolve these findings.

In accordance with CPB audit resolution procedures, CPB management is responsible
for determining the corrective actions to be taken. Based on WQED’s response to the
draft report, we consider recommendations 1a-d, 2a, 3b, and 4 unresolved.
Recommendations 2b and 3a are considered resolved but open pending a management
decision from CPB


                                  BACKGROUND

WQED Multimedia is a nonprofit corporation chartered by the Commonwealth of
Pennsylvania and licensed by the Federal Communications Commission (FCC) to
operate WQED-TV and WQED-FM, public broadcasting stations serving southwestern
Pennsylvania, eastern Ohio, northern West Virginia, and western Maryland. WQED
Multimedia is the parent company of WQED-TV, WQED: The Neighborhood Channel,
WQED: The Create Channel, Classical WQED-FM 89.3/Pittsburgh, WQEJ-FM
89.7/Johnstown, local and national television and radio productions, WQED Interactive
(www.wqed.org), and the WQED Education Department.

WQED was the nation’s first community-supported television station and went on the air
on April 1, 1954. In 1973, Classical WQED-FM 89.3 was founded as the region’s only
24-hour classical radio station. Subsequently, WQED’s Pittsburgh Magazine evolved

                                           2
   (A) as gifts, grants, bequests, donations or other contributions for the
       construction or operation of noncommericial educational broadcast
       stations, or for the production, acquisition, distribution, or
       dissemination of educational television or radio programs, and
       related activities, from any source other than (i) the United States or
       any agency or instrumentality of the United States; or (ii) any public
       broadcasting entity; or
   (B) as gifts, grants, donations, contributions, or payments from any State,
       or any educational institution, for the construction or operation of
       noncommericial educational broadcast stations or for the production,
       acquisition, distribution, or dissemination of educational television or
       radio programs, or payments in exchange for services or materials
       with respect to the provision of educational or instructional television
       or radio programs.

In simpler terms, an allowable NFFS transaction can be either a contribution or a
payment provided for qualifying activities from an eligible source. CPB Guidelines also
provide for allowable NFFS exchange transactions. These are defined as payments
received from educational institutions, or state and local government agencies in
exchange for producing, developing, or delivering educational or instructional
programming, but excludes exchange transactions from for profit entities.

The Act prohibits including payments for advertising as NFFS. Beginning in FY 2001,
CPB implemented a policy to exclude all contributions for acquiring new television
broadcast and operational equipment, as well as new facilities, new construction, and
facility upgrades and improvements.

The transactions we categorized as unrelated business income were payments
received as exchange transactions either from ineligible sources or for ineligible
activities. As a result, these transactions were unallowable as NFFS. To illustrate, a
corporation paid to rent space within WQED’s studio. A utility provider paid WQED to
produce videos for use in the corporation’s headquarters facility. The letter of
understanding between WQED and the corporation explained that the videos belonged
exclusively to the corporation. Additionally, a museum paid WQED to produce three
six-minute videos that also belonged exclusively to the museum. The payments WQED
received from these three entities were considered ineligible because the services
WQED provided were not for the production of educational programming.

The NFFS amounts identified as unrelated business income also included payments
received from another public television station in exchange for training WQED provided
to the TV station’s personnel. CPB Guidelines Section 2.3 provides that public
broadcasting entities are ineligible sources for NFFS payments, and the services
provided by WQED were not for production of a program. As a result, these payments
were also considered unallowable NFFS. We also determined that an insurance
reimbursement of more than $92,000 for damage to WQED’s antenna was unallowable
in accordance with CPB Guidelines Section 2.3.1.

                                            7
facility and equipment rental, as well as production costs. These costs, totaling
$643,460, should have been deducted from the amount claimed as NFFS, as follows:

                              Doo Wop Concert Revenues

                                  Total       Production     Net Allowable
               Fiscal Year      Revenues      Expenses         Revenue

                  2008           $192,776         $96,156          $96,620
                  2009            352,705         208,701          144,004
                  2010            521,763         338,603          183,160

                  Total         $1,067,244        $643,460         $423,784

During each fiscal year we reviewed, WQED established separate control accounts to
record and segregate revenues and expenses for a number of pledge events such as
the Doo Wop Concert, the Elsie Awards, and its Best Restaurants Party. For the Elsie
Awards and the Best Restaurants Party, WQED claimed net revenues after deducting
expenses as required by CPB Guidelines. As a result, based on CPB’s Guidelines, we
considered $643,460 in revenues claimed for Doo Wop Concerts as unallowable NFFS.

Each fiscal year, WQED also provided donors various types of Pledge Premiums –
Tickets as inducements to provide pledges during its various membership drives. While
WQED claimed the revenues from these pledge drives, it did not deduct the costs of the
tickets provided to donors from NFFS. WQED used a single expense account (Pledge
Premiums –Tickets) each year to accumulate the cost of these tickets, as follows:

                                       Ticket Costs

                             Fiscal     Pledge Premiums –Tickets
                              Year       Account # 07-3013-88101

                             2008                 $227,615
                             2009                  199,685
                             2010                  171,939

                             Total                $599,239

Based on CPB’s Guidelines, we determined that these pledge premiums should have
been deducted from the NFFS WQED reported during our audit period. As a result, the
$559,239 reported as NFFS is considered unallowable NFFS.

Each year, WQED also conducted a number of events and contests for which it
reported the gross revenues received from business or foundations as underwriting.
None of these events that included: concerts, an open house, scholarship award
events, outreach to local schools, a young writer’s contest, and a Battle of the Bands
contest were broadcast on public television or radio. While the station incurred
substantial amounts of expenses to conduct these events, WQED reported the funds
provided by Business and Industry on line 9 of the AFR and funds provided by

                                             10
Foundations and Nonprofit Associations on line 8. However, WQED should have
considered these events as special fund-raising and claimed them on line 14 of the AFR
– Special Fund-raising and deducted the $261,315 in expenses incurred to host the
special events from total revenues.

Further details concerning the special fund-raising events are in Exhibits L, M, and N.

   Recommendations

1) We recommend that CPB management take the following actions to:

   a) require WQED to submit revised Television AFRs, Schedules A , eliminating
      unallowable direct revenues for Fiscal Years 2008, 2009 and 2010;
   b) recover $673,917 in excess CGS payments made to WQED that we classified as
      funds put to better use based on the FYs 2008 and 2009 reported NFFS;
   c) use the revised 2010 AFR submitted by WQED to recalculate the station’s 2012
      CSG to eliminate the overpayment of approximately $124,264 in future CSG
      payments to WQED; and,
   d) require WQED to identify the corrective actions and controls it will implement to
      ensure future compliance with NFFS Guidelines.


   WQED Response

WQED generally disagreed with our findings and presented their understanding of the
CPB Financial Reporting Guidelines. WQED also explained that its auditors made the
same interpretations of the guidelines and certified the amounts WQED reported as
NFFS. The following are a summary of WQED’s responses to specific items identified
as ineligible to be claimed as NFFS.

       TV Equipment Upgrades

WQED’s response stated that, “The guidelines on this matter tend to be very confusing
and contradictory. ‘The Public Broadcasting Act defines NFFS as the total value of
cash and the fair market value of property and services received as gifts, grants,
bequests, donations or other contribution for the construction or operation of
noncommercial educational broadcast stations….’” In addition, the 2008 and 2009 CPB
guidelines state that, “… the line item reporting requirements for lines 7 & 8 in-kind
contributions are ineligible as NFFS. Specifically it states in item D that for TV only-
property and equipment that includes new facilities (land and structures), expansion of
existing facilities and acquisition of new equipment, in-kind contributions are ineligible.
WQED did not receive any in-kind capital donations and thus included the grant funds
received.”




                                            11
The funds received were for underwriting recognition and all activities had spots air on
WQED in which the sponsor/underwriter was named. No one who attended the event
was charged and only a single organization provided the underwriting so these were not
fundraising events.”

       Ticket Premiums (2008, 2009, 2010)

WQED’s response stated that “WQED and its auditors concurred that these amounts
should be included as NFFS since the premiums were individually of insubstantial
value. From CPB Financial Reporting Guidelines, ‘All grantees must deduct from NFFS
the fair market value of premiums (i.e. thank you gifts) that are exchanged with donors
in quid pro quo transaction (except those that have insubstantial value).’”

       Doo Wop Concert (2008, 2009, 2010)

WQED’s response stated that “The Doo Wop Concerts were not considered a
fundraising activity and as a result were included as NFFS. The tickets were given as
pledge premiums and the shows were produced as pledge shows rather than as a
fundraising event. In the absence of a definition for a fundraising event in the CPB
guidelines, the AICPA Not-for-Profit Audit Guide was used and defined a fundraising
event as ‘activities undertaken to induce potential donors to contribute money,
securities, services, materials, facilities, other assets or time.’ The Doo Wop Concerts
do not appear to fall into this definition; rather they appear to be mission related
activities.”

       LN Concert (2010)

WQED’s response stated that “A concert promoter donated $1 a ticket for a previously
scheduled designated concert it held. The money received while based on the sale of
tickets was not a fundraiser paid for by WQED. It was a donation only from the
organization and the amount was based on the sale of tickets. As such it was
considered a donation to carry on the mission of the organization and was included as
NFFS.”

   OIG Review and Comment

Based on WQED’s response we consider recommendations 1a-d unresolved pending
CPB’s management decision. Section 2.8.2 of CPB’s Guidelines cited in the audit
report explains that all direct and in-kind contributions for new equipment are ineligible.
When referring to lines 7 and 8, WQED is citing the instructions for completing a
schedule applicable only to in-kind contributions. As a result, the references for lines 7
and 8 do not discuss direct contributions. We disagree that a prorate portion of
magazine advertising is eligible NFFS. As WQED’s response explained, “The
Pittsburgh Magazine started as a published program guide and evolved over time into a
community magazine.” As a community magazine, its adverting revenues no longer
satisfy the NFFS purpose criterion.

                                            13
                    Amounts Claimed as Direct and Indirect Expenses

                                                               Productions
                                                        Breakfast        Lincoln
                          Expense Category              Anytime          Highway

                   Payroll Taxes                          $6,398           $5,428
                   Insurance                               1,500            2,000
                   Telephone & Fax                         1,000              400

                   Totals                                 $8,898           $7,828

                   Charged to CPB Grants1                 $3,314           $3,615

Section 4G of CPB’s Terms and Conditions governing its grants require that grantees
must keep books, records, and accounts sufficient to enable CPB to verify all direct
costs, overhead, and administrative allocations associated with the grant project.
Section 4K of this same reference requires WQED to certify that its financial reports
submitted to CPB must be reconcilable to the station’s general ledger. The taxes,
insurance and telephone amounts claimed as both direct and indirect expenses were
not reconcilable to WQED’s general ledger. As a result, we questioned the direct
expenses claimed for taxes, insurance and telephone, and accepted the amounts
claimed as indirect expenses.

    Recommendations

2) We recommend that CPB management:

    a) initiate action to recover questioned costs of $6,929 that resulted when WQED
       claimed taxes, insurance and telephone expenses as both direct and indirect
       costs; and
    b) require WQED to implement corrective actions to prevent future overcharges.

    WQED Response

WQED did not respond directly to this recommendation, but its response to our finding
regarding discrete accounting indicated it has implemented corrective action to prevent
future overcharges to CPB grants.




1
 Calculated by applying the G&A rate and the CPB share of total project costs specified in the grant
agreements.

                                                   15
   OIG Review and Comment

Based on WQED’s response we considered Recommendation 2a unresolved.
Recommendation 2b is considered resolved but open pending CPB’s management
decision accepting WQED’s corrective action to implement discrete accounting.


Lack of Discrete Accounting for CPB Grant Funds

During our audit period, WQED’s accounting system did not separately identify the
receipt and use of grant funds as required by CPB grant terms. Only revenues and
expenditures for the Breakfast Anytime and A Ride Along The Lincoln Highway
production grants were separately accounted for on a project basis. The lack of
discrete accounting for the Ready To Lead in Literacy (RTLL) grant resulted in
questioned costs of $7,200 for lack of documentation of expenses incurred against this
grant.

CPB’s General Provisions and Eligibility Criteria for Television CSGs, Section 9.B, and
Radio CSGs, Section 10.B. Record Keeping and Audit Requirements require stations to
provide discrete accounting and proper documentation to support all CSG expenditures.
It further establishes that:

   •   CSG funds which cannot be accounted for because of the recipient’s failure to
       comply with this requirement may be subject to repayment;
   •   grant recipients must maintain financial records that facilitate an effective audit;
       and,
   •   records must be retained for no less than three years after the end of the
       expenditure period.

Additionally, CPB’s website further explains that, “discrete accounting requires a unique
code that identifies CSG revenues and expenses, restricted and unrestricted, so that
both the grantor and the auditor can discretely track those funds within the accounting
system. There is no requirement to segregate CSG funds in separate bank accounts.
Co-mingling funds is allowable as long as the accounting system can easily identify
transactions associated with a major activity (i.e., department, grant, contract or other
project).”

Similarly, CPB’s Terms and Conditions for Television, Radio and Other Media
Production Grants that are applicable to all CPB grants including DDF, the Digital
Conversion, Digital Television Transition, and Ready To Lead in Literacy grants also
requires accounting for these grants on a project basis. Section 4.G of these Terms
and Conditions specifies that, a Grantee must keep books, records, and accounts
relating to the Grant and the Grant Project sufficient to:




                                             16
          i) enable CPB to verify all direct costs, overhead, and
           administrative allocations associated with the Grant Project;

          ii) disclose fully the amount and use of the proceeds of the
            Grant, the Total Project Cost, and the amount and nature of any
            portion of the Total Project Cost supplied by sources other than
            CPB; and,

          iii) permit an effective audit.

While WQED maintained separate general ledger accounts for the receipt of radio and
television2 CSG revenues, separate accounts of CPB expenditures were not
established for these two CSG grants. We also found that both the receipts and
expenditures of DDF 10, DDF 12, Digital Conversion, Digital Television Transition
grants, and portions of the expenses for the RTLL grant were also not accounted for on
a project basis. Instead, all receipts of CPB digital grant funds were recorded into a
single digital tech fund revenue account with the receipts from various other foundations
and corporations. Likewise, all digital tech fund expenditures were also recorded in a
single expense account.

To facilitate our audit of CPB revenues and expenditures, WQED identified the CPB
revenues and the vast majority of CPB expenditures in accounts where CPB
transactions were commingled with transactions funded from other sources. To
illustrate, we were presented with PBS billings and invoices for other program
acquisitions to evidence expenditures of CSG funds. These invoices supported
expenditures in excess of the CPB’s CSG funding levels for our audit period. Likewise,
WQED officials provided contract documents, invoices, and payment information to
evidence that they purchased the required equipment and services specified in CPB’s
DDF and other digital grants.

For this audit, we accepted management’s assertion that the documentation they
provided for expenses applicable to the CSG, DDF, and Digital grants, as well as the
RTLL labor expenses were paid with CPB funds; however, we could not independently
verify what expenditures were paid from what funding source because expenditures
were commingled in common revenue and expense accounts.

We noted that a portion of the expenses claimed for year 3 of the RTLL grant such as
salaries, benefits, and office supplies were separately accounted for on a project basis.
However, the travel, photocopying, postage and other expenses for this grant were
commingled with the expenses incurred for WQED’s entire education department.



2
  Receipt of Interconnection grant funds also were not separated from Television CSG funds, but
recorded in one account. Restricted Radio CSG funds were also not segregated from unrestricted Radio
CSG funds, but again recorded in the same account.


                                                 17
WQED officials provided timesheets to document labor expenses claimed for year 3 of
the RTLL.3 However, they could not adequately document RTLL expenses totaling
$5,200 claimed for other direct costs, e.g., photocopying, postage, and $2,000 claimed
for travel. WQED’s general ledger only recorded other direct costs and travel expenses
for the entire Education Department, and WQED officials were unable to substantiate
which of these costs were applicable to the CPB grant. As result, we questioned the
$7,200 as unsupported.

Station officials stated they understood the need for better accountability. While we
were on site at the station they began implementing a new accounting system that
station officials indicated would separately track CPB revenues and expenditures in
order to provide an adequate audit trail in the future.

      Recommendations

3) We recommend that CPB management:

      a) require WQED to comply with CPB’s discrete accounting requirements and
         maintain sufficient financial records to facilitate an effective audit of CPB
         revenues and expenditures. Such records should discretely account for the grant
         income and expenditures for all CPB grants awarded to WQED.
      b) recover the $7,200 of unsupported Other Direct Costs and travel costs claimed
         for the Ready To Lead in Literacy grant.

      WQED Response

WQED’s response said that over the last year, WQED’s new financial management
team restructured the system in order to discretely track revenues and expenses for
each grant. Therefore, as recommended in the audit report, WQED has implemented
corrective actions to prevent future overcharges to grants.

      OIG Review and Comment

We consider Recommendation 3a resolved but open pending CPB’s management
decision on whether to accept WQED’s corrective action to implement discrete
accounting. However, based on WQED’s response Recommendation 3b is considered
unresolved.




3
    WQED discretely accounted for office supplies totaling $3,012 that it did not claim as a grant expense.

                                                      18
AFR Reporting

WQED needs to revise it procedures for preparing AFRs to improve the accuracy of
information submitted to CPB. The Television and Radio AFRs WQED submitted each
fiscal year reported the CSGs received in the subsequent year e.g., the Fiscal Year
2010 AFRs reported the FY 2011 CSG revenues. Each year, CPB provides stations an
advisory communication telling them the amount of their CSGs for the coming Fiscal
Year. When WQED received this communication late in the year, it recognized the
grant revenues on its accounting records and reported it on the AFR for the current
fiscal year. However, CPB did not officially award the CSG discussed in the advisory
communication until the next fiscal year. As a result, WQED recorded the CSG revenue
in the fiscal year before the grant was officially awarded and accepted by WQED.

Furthermore, WQED’s radio AFR did not separately report the amount of the restricted
and unrestricted CSG funds it received, as required by CPB instructions for completing
AFRs. Instead, WQED reported only the total amount of the CSG on line 2A. CPB
Guidelines Part III, AFR instructions for line 2A states in part to use this line to report the
unrestricted Radio CSG funds received, and to use line 2C to report the restricted
portion of the Radio CSG funds. We also found that radio FM conversion grant funds
and Federal Stimulus Grant funds for radio were reported on the TV AFR.

   Recommendation

4) We recommend that CPB require WQED management to revise its procedures for
   recording CSGs and preparing AFRs to ensure the correct CSG grant amounts are
   reported on AFRs, and that restricted and unrestricted radio CSG funds are
   separately reported on the AFRs.

   WQED Response

WQED’s response to the draft report did not address this recommendation, but
indicated its agreement with our recommendation during the exit conference.

   OIG Review and Comment

Recommendation 4 is considered unresolved pending CPB’s final management
decision.




                                              19
                                                                           Exhibit A
    CPB Grant Awards with Payments Made to WQED
        During the Period October 1, 2007 – September 30, 2010

                                               Award           Grant
Media             Grant Type                    Date         Payments
 TV      FY 2008 CSG - Unrestricted            October-07
                                               October-07      $914,346
                                                 March-08       888,058
 TV      FY 2008 - Interconnection             October-07
                                               October-07         19,181
                                                 March-08         18,901
 FM      FY 2008 CSG - Unrestricted            October-07
                                               October-07         56,186
                                                 March-08         54,542
 FM      FY 2008 CSG - Restricted              October-07
                                               October-07         21,680
                                                 March-08         21,043
 TV      FY 2009 CSG - Unrestricted            October-08
                                               October-08        918,021
                                                 March-09        918,021
 TV      FY 2009 - Interconnection             October-08
                                               October-08         18,854
                                                 March-09         18,853
 FM      FY 2009 CSG - Unrestricted            October-08
                                               October-08         51,200
                                                 March-09         51,200
 FM      FY 2009 CSG - Restricted              October-08
                                               October-08         18,093
                                                 March-09         18,092
 TV      FY 2010 CSG - Unrestricted            October-09
                                               October-09        920,764
                                                 March-09        920,764
 TV      FY 2010 - Interconnection             October -09
                                               October-09         18,364
                                                 March-09         18,365
 FM      FY 2010 CSG - Unrestricted            October -09
                                               October-09         56,112
                                                 March-10         56,112
 FM      FY 2010 CSG - Restricted            September 09
                                               October-09         20,034
                                                 March-10         20,034
 TV      Fiscal Stabilization Grant            January-10
                                               January-10        158,471
 FM      Fiscal Stabilization Grant            January-10
                                               January-10        14,140
                                  Subtotal                   $6,209,431



                                      20
                                                              Exhibit A (Continued)

        CPB Grant Awards and Payments Made to WQED
          During the Period October 1, 2007 – September 30, 2010

                                                Award            Grant
Media                Grant Type                  Date          Payments
 TV       DDF Round 10                        September-07
                                                    July-08      $252,700
                                                   May-10          97,120
 TV       DDF Round 12                        November-08
                                              November-08           2,500
                                               February-10          2,446
          A Ride Along The Lincoln
 TV       Highway                                  July-07
                                                  March-08         25,000
                                                 August-08         20,000
                                               February-09         19,010
                                                January-09
 TV       Breakfast Anytime                         July-09
                                                   June-09         45,000
                                                   April-10        25,000
          Ready To Lead in Literacy
 TV       (RTLL)                                January-07
                                              November-07          16,000
                                                January-09          1,500
 TV       Digital Television Transition             May-09
                                                    May-09         15,867
 FM       Digital Conversion                       July-06
                                                 August-10         26,370
                               Grand Total:                     $6,757,944




                                      21
                                                                                      Exhibit B

            WQED SUMMARY OF NON-FEDERAL FINANCIAL SUPPORT
                          REPORTED TO CPB

                                          RADIO


           AFR Schedule                  FY 2008        FY 2009       FY2010          Total

Direct Revenue (Schedule A)              $1,572,531    $1,586,485     $1,729,624     $4,888,640

Indirect Administrative Support
     (Schedule B)                                  0              0             0             0

In-Kind Contributions (Schedules C&D)
   a. Services and Other Assets
       (Schedule C)                                               0             0             0
   b. Property and equipment
       (Schedule D)                                0              0             0             0

             TOTAL NFFS                  $1,572,531    $1,586,485     $1,729,624     $4,888,640



                                        TELEVISION


           AFR Schedule                 FY 2008         FY 2009       FY 2010         Total

Direct Revenue (Schedule A)             $13,914,853    $10,139,306    $8,581,324    $32,635,483

Indirect Administrative Support
     (Schedule B)                                  0              0             0             0

In-Kind Contributions (Schedules C&D)
   c. Services and Other Assets
       (Schedule C)                        731,648        724,967       335,000       1,791,615
   d. Property and equipment
       (Schedule D)                                0              0             0             0

             TOTAL NFFS                 $14,646,501    $10,864,273    $8,916,324    $34,427,098




                                             22
                                                                                          Exhibit C
                            WQED Television FYs 2008-2010 AFRs
Line             Schedule A, Source of Income:                 2008          2009          2010
1      Amounts provided directly by federal government        $515,095         ($275)     $192,266
2.A    CPB-CSG                                                2,100,065     1,841,528     1,337,586
2.B    CPB-Digital Grants                                                     18,367        28,836
2.D    CPB-Interconnection Grants                               38,221        36,729        25,781
2.E    CPB--All other Funds                                     17,500       100,000
2.F    PBS-All payments except royalties                       508,492       639,085       222,543
2.H    Public Broadcasting Stations - all payments             958,547       990,306       311,779
3      Local Boards and Departments of Education                96,050        49,512
4      State boards and Departments of Education              2,649,767      826,020       318,200
5      State colleges and universities                                0             0         2,764
7      Private Colleges and Universities                       604,346       242,672        84,703
8      Foundation and Nonprofit Associations                  2,988,769     1,108,371     1,660,714
8.a       Amount Received as Underwriting                       71,254        58,326        55,301
9      Business and Industry                                  6,262,128     5,410,540     2,817,475
9.a       Amount Received as Underwriting                      433,281       449,371       395,881
10     Memberships and Subscriptions (net of write-offs)      4,570,029     4,193,928     3,903,671
14     Special Fundraising Activities                           38,875                     256,672
14.A      Gross Special Fund-raising Revenues                  104,208                     422,150
14.B      Direct Special Fund-raising Revenues                  65,333                     165,478
15     Passive Income                                          205,540        81,269        72,610
15.A      Interest and Dividends                               186,655        80,510        72,405
15.B      Royalties                                             18,885           759           205
16     Gains and Losses on Investments/ Sale of Assets        (662,597)      (23,404)      229,611
16.A      Gains on Sales of Property and Equipment                    0         3,500             0
16.B      Realized Gains/Losses on Investments                  73,258      (222,517)         7,420
16.C      Unrealized Gains/Losses on Investments              (735,855)      195,613       222,191
19     Gifts and Bequests from Major Donors                           0      578,466      1,386,465
20     Other Direct Revenue                                     69,605        74,357        58,966
21     Total Revenue                                        $21,025,765   $16,167,471   $13,076,122
        Adjustments to Revenue
22     Federal revenue                                        $515,095         ($275)     $192,266
23     Public broadcasting revenue                            3,622,825     3,626,015     1,926,525
24     Capital Fund Exclusion - TV Only                               0             0             0
25     Other Revenue (line 21) Not to be included as NFFS     3,570,256     2,425,829     1,980,918
26     Other Automatic Subtraction from Revenue               (597,264)      (23,404)      395,089
26.B      Special fundraising event expenses                    65,333              0      165,478
26.C      Gains From Sales of Property and Equipment                  0         3,500             0
26.D      Realized Gains/Losses on Investments                  73,258      (222,517)         7,420
26.E      Unrealized Gains/Losses on Investments              (735,855)      195,613       222,191
27     Total Direct Nonfederal Financial Support            $13,914,853   $10,139,306    $8,581,324

                                                     23
                                                                     Exhibit C (Continued)

                            WQED Television FYs 2008-2010 AFRs
Line             Schedule A, Source of Income:           2008          2009          2010
       Schedule C, In-Kind Contributions:
2.A    Annual Rental Value of Space                     $335,000      $335,000      $335,000
3.B    State Public Broadcasting Agencies                396,648
4      Total In-kind Contributions                      $731,648      $335,000      $335,000


       Schedule E, Expenses:
        Program Services
1      Programming and Production                      $8,191,198    $6,724,830    $5,793,149
2      Broadcasting and Engineering                     1,978,878     1,524,460      998,137
3      Program Information and Promotion                3,364,794     2,403,326      266,289
       Support Services
4      Management and General                           3,792,720     3,246,336     3,080,834
5      Fund raising and Membership Development          2,888,599     2,671,504     3,020,862
6      Underwriting and Grant Solicitation               529,766       459,462       449,036
7      Depreciation and Amortization                    1,082,908     1,166,344     1,182,418
       Total Expenses                                 $21,828,863   $18,196,262   $14,790,725




                                                 24
                                                                                         Exhibit D
                  WQED-FM FYs 2008-2010 Annual Financial Reports
Line              Schedule A, Source of Income:              2008          2009          2010
1      Amounts provided directly by federal government       $41,470              $0            $0
1.A      PTFP Facilities Grant                               $41,470              $0            $0
2.A    CPB-CSG                                               136,305       152,292       158,843
2.C    CPB-Restricted portion of Radio CSG                           0             0             0
3      Local Boards and Departments of Education              50,000        50,000       100,000
4      State Boards and Departments of Education               8,000
7      Private Colleges and Universities                     148,918        34,347        65,559
8      Foundation and Nonprofit Associations                 136,355       125,414       384,807
8.a       Amount Received as Underwriting                    105,005        82,107        90,509
9      Business and Industry                                 228,838       274,909       271,620
9.a       Amount Received as Underwriting                    196,303       230,908       227,836
10     Memberships and Subscriptions (net of write-offs)     973,566      1,022,197      896,669
17     Endowment Revenue                                     (49,209)       16,660        26,343
17.B      Interest and Dividend on Endowment Funds            26,854        10,868         9,969
17.C      Net Investment Gains and Losses                    (76,063)        5,792        16,374
19     Gifts and Bequests from Major Donors                          0      68,750         1,000
21     Total Revenue                                       $1,674,243    $1,744,569    $1,904,847
        Adjustments to Revenue
22     Federal Revenue from Line 1                            41,470
23     Public broadcasting revenue                           136,305      $152,292      $158,843
26     Other Automatic Subtraction from Revenue              (76,063)        5,792        16,374
26.F      Net Investment Gains and Losses                    (76,063)        5,792        16,374
27     Total Direct Nonfederal Financial Support           $1,572,531    $1,586,485    $1,729,624
       Schedule C, In-Kind Contributions:
2.A    Annual Rental Value of Space                                 $0            $0            $0
4      Total In-kind Contributions                                  $0            $0            $0
       Schedule E, Expenses:
        Program Services
1      Programming and Production                           $441,689      $461,026      $436,392
2      Broadcasting and Engineering                          315,285       300,401       270,736
3      Program Information and Promotion                      66,997        68,957        71,352
       Support Services
4      Management and General                                492,010       497,868       577,890
5      Fund raising and Membership Development               190,512       184,270       240,272
6      Underwriting and Grant Solicitation                    39,875        45,441        61,232
7      Depreciation and Amortization                          83,024       133,794       133,794
8      Total Expenses                                      $1,629,392    $1,691,757    $1,791,668
9      Capital Asset Purchased and Donated                      2,943       77,768               0
9.B      Equipment                                              2,943       77,768              0
10     Total Expenses & Investments in Capital Assets      $1,632,335    $1,769,525    $1,791,669
                                                   25
                                                                                 Exhibit E

                  Digital Distribution Fund Round 10, Grant No. 11194
             Final Financial Report to Corporation for Public Broadcasting
                           June 30, 2007 – November 18, 2009

                                                       Grant        Actual
                Revenue and Expenses                  Budget     Expenditures    Variance

Revenue
CPB Funded Equipment/Services                         $388,720
WQED Funded Equipment/Services                         388,720
Total Revenue                                         $777,440


Expenses
DTV Transmitter System
   5kW Avg. DTV Solid State Transmitter               $288,690        $288,690          0
  4-Port Motorized Switch                                5,250           5,250          0
  Station Load                                           2,700           2,700          0
  Transmitter Electrical Installation                   10,500          14,000      3,500
  System Installation and Proof of Performance          15,000          17,000      2,000

Antenna and Transmission Line
   Antenna and Mounting Pole                           170,000         162,500     (7,500)
   Transmission Line                                    50,000          36,908    (13,092)
   Elbow Complex                                         7,800           8,433         633
   Pedestal                                             50,000           8,373    (41,627)
   Installation                                        150,000         203,680      53,680
   Shipping and Offloading                               7,500           6,741       (759)

Other Eligible Expenses
  Engineering Design Consulting                         10,000           9,420      (580)
  Permits, Building, HVAC, Electrical                   10,000           9,036      (964)

Transmission Line Parts**                                                5,900      5,900
Termination Kit for Combiner**                                           7,610      7,610


Final Project Totals                                  $777,440        $786,241     $8,801
CPB Funded Share (50%)                                    50%
CPB Payments                                          $388,720




                                                 26
                                                                              Exhibit F

               Digital Distribution Fund Round 12, Grant No. 12052
          Final Financial Report to Corporation for Public Broadcasting
                             August 1, 008 – May 1, 2009

                                                Grant       Actual
             Revenue and Expenses              Budget    Expenditures   Variance

Revenue
CPB Funded Equipment/Services                   $5,025
WQED Funded Equipment/Services                   1,675
Total Revenue                                   $6,700


Expenses
PSIP Generator Upgrade                          $4,200         $4,094       $106
PSIP installation and Training                   2,500          2,500          0
Final Project Totals                            $6,700         $6,594       $106

CPB Funded Share                                  75%            75%
CPB Payments                                    $5,025         $4,946        $79




                                          27
                                                                   Exhibit G

      A Ride Along The Lincoln Highway, Grant No. 10834
 Final Financial Report to Corporation for Public Broadcasting
               June 1, 2007 – November 14, 2008

                             Grant        Actual
  Revenue and Expenses      Budget     Expenditures Variances

Revenue
CPB                         $100,000
Grantee Guarantee            199,939


Total Revenue               $299,939


Expenses
  Project Staff             $100,156       $102,664      $2,508
  Operating Expenses           3,800          3,527        (273)
  Travel                      28,500         24,708      (3,792)
  Talent & Rights              9,480          8,680        (800)
  Remote Production           49,192         50,206        1,014
  Post-Production             27,224         26,425        (799)
  Promotion                   24,500         24,500            0
  Web Site Design              3,000          3,000           $0
  Overhead                    54,087         53,617        (470)


Total Expenses              $299,939       $297,327     ($2,612)

CPB Share                                    33.3%
CPB Payments                                $99,010




                              28
                                                                         Exhibit H

                  Breakfast Anytime, Grant No. 12456
     Final Financial Report to Corporation for Public Broadcasting
                     June 1, 2009 – August 31, 2010

                                          Grant        Actual
       Revenue and Expenses              Budget     Expenditures Variances

Revenue
CPB                                      $100,000
Grantee Guarantee                         199,899


Total Revenue                            $299,899


Expenses
  Project Staff                           $94,388       $106,104    $11,716
  Operating                                 3,550            951     (2,599)
  Travel                                   34,610         24,542    (10,068)
  Talent & Rights                           9,840          5,539     (4,301)
  Remote Production                        49,508         46,167     (3,341)
  Post-Production                          35,968         50,453      14,485
  Promotion                                17,955         11,398     (6,557)
  General & Administrative*                54,080         53,934       (146)
  (legal, accounting, etc., @22%)


Total Expenses                           $299,899       $299,088     ($811)

CPB Share                                                 33.3%
CPB Payments                                             $99,730




                                    29
                                                        Exhibit I

  Digital Television Transition Grant No. 12688
             Final Financial Report to
       Corporation for Public Broadcasting
                As of June 30, 2009

                              Grant         Actual
 Revenue and Expenses        Budget      Expenditures

Revenue
CPB                            $15,867
Total Revenue                   15,867


Expenses
Transmitters                                  $22,560
Total Expenses                                $22,560


CPB Payments                                  $15,867




                        30
                                                                  Exhibit J

        WQEJ-FM Digital Conversion, Grant No. 9401
       Final Financial Report to Corporation for Public
                        Broadcasting
                 May 27, 2005 – May 31, 2010

                                       Grant         Actual
     Revenue and Expenses             Budget      Expenditures

Revenue
CPB*                                    $75,000
Grantee Guarantee                        40,532


Total Revenue                         $115,532


Expenses
Digital Transmitter                     $53,820         $55,900
Spare parts                               1,970           1,530
HD Importer                               5,070           7,778
HD Exporter**                            10,920              0
Digital Audio Processor                   7,795           8,280
Miscellaneous                            10,611          10,611
PCI Sound Cards**                         7,788              0
Site Commissioning**                      4,800              0
Shipping**                                2,571              0
Transmitter Interface**                   2,336              0
Power Metering Equipment**                3,249              0
Digital Toolbox**                         2,262              0
HD Exciter**                              2,340              0


Total Expenses                        $115,532          $84,099


CPB Share                                                  70%
CPB Payments                                            $58,870


*Includes a $5,000 CPB prepaid iBiquity credit
** Included with Transmitter when purchased




                               31
                                                                                        Exhibit K

                 Ready To Lead in Literacy-Year 3, Grant No. 10800
           Final Financial Report to Corporation for Public Broadcasting
                               As of December 2008

                                                  Grant Budget         Actual Expenditures
                                             CPB           WQED         CPB
     Revenue and Expenses                   Share          Share       Share       WQED Share

CPB Matchable Budget Items
Employee Compensation
  Training Staff                                  $7,000     $7,000      $7,800              0
  Program Coordinator                                  0     10,000           0         25,000
  Program Manager                                      0     25,000           0          5,000
  Clerical                                             0          0           0          5,000
  Unit Manager                                         0          0           0          1,080
  Benefits                                         1,960          0           0

Travel                                             1,800           0      2,000

Other Direct Costs                                                             0
  Insurance                                                                              1,500
  Legal                                                                                  1,000
  Photocopy                                         450                  1,500*
  Postage                                                                1,500*
  Book Purchase                                                                          5,000
  Local Events                                                           1,500*
  Office Supplies                                  3,790     15,000
  Telephone/Fax                                                 500                        700
  Ad and Promotion                                                         700*            800
  Project Materials Development                                                         12,500
Overhead                                                                                 8,368
Station In-kind                                                                          7,700
Total Expenses                               $15,000        $57,500     $15,000        $73,648


CPB Payments                                                            $15,000

Amount Questioned                                                         7,200
Amount Accepted                                                          $7,800
* Other Direct Expenses claimed totaled $5,200.




                                                     32
                                                                                     Exhibit O


                               SCOPE AND METHODOLOGY

We performed this audit as a compliance attestation examination under Government
Auditing Standards (GAS) to determine whether WQED reported NFFS in accordance with
CPB’s Guidelines; complied with Certification of Eligibility requirements and selected
provisions of the Communications Act of 1934, as amended (the Act); and, spent grant
funds in accordance with grant terms. We performed our audit field work during the period
May 2011 through August 2011.

The scope of the audit included tests of the AFRs, Schedules A and C, and the data
reported on them for the fiscal years ended June 30, 2008, 2009, and 2010. For these
years we tested the accuracy of the $39 million of NFFS claimed on WQED’s AFRs by
performing financial reconciliations and comparisons to underlying accounting records and
the audited financial statements to verify transactions recorded in the general ledger and
reported on the AFRs. We evaluated compliance with CPB Guidelines, in part, by reviewing
documentation of cash receipts, donations, underwriting contract agreements, and
reviewing the fair value reported for in-kind contributions. We tested over $8.9 million of the
$16.2 million of NFFS claimed for FY 2008, $4.3 million of the $12.5 million claimed for FY
2009, and $3.5 million of the $10.6 million claimed for FY 2010. We concentrated our
judgmental testing on the larger revenue amounts selected from the higher risk revenue
categories.

We also reviewed expenditures that totaled more than the $6.8 million of the $8.6 million
that WQED incurred for the FYs 2008-2010 CSGs and Interconnection, DDF, Digital
Conversion, and the Breakfast Anytime and A Ride Along Lincoln Highway production
grants shown in Exhibit A. We tested expenditures for compliance with grant agreement
terms.

We reviewed documentation of WQED’s compliance with the Act requirements.
Specifically, we reviewed WQED’s public inspection files, Board of Director’s (BOD) and
Community Advisory Board (CAB) meeting minutes, evidence that meetings were
announced to the public. We reviewed the open financial records file and Equal
Employment Opportunity (EEO) documents to ensure they were available for general public
inspection in compliance with the Act. Finally, we reviewed WQED’s compliance with CPB’s
donor list and political activities requirements.

To assist in our audit planning and assure ourselves that we could rely on the work
performed by WQED’s independent public accountant (IPA), we met with representatives of
the firm that conducted WQED’s financial statement audit and attestation work on WQED’s
AFRs. We reviewed their tests of internal controls and their fraud risk assessment analysis.
For the attestation review, we also reviewed their test work on the accuracy of WQED’s
AFRs.



                                              36
We gained an understanding of WQED’s internal controls over the preparation of the AFRs
and cash receipts as part of our overall risk assessment. We used this understanding to
plan our audit work and select those areas that posed the greatest risk to the accurate
reporting of NFFS.




                                           37
